HHS/OIG, Audit - "Review of University of California, San Francisco
Medical Centers Reported Fiscal Year 2004 Wage Data," (A-09-05-00039)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of
University of California, San Francisco Medical Centers Reported Fiscal Year
2004 Wage Data," (A-09-05-00039)
September 20, 2006
Complete Text of Report is available in PDF format (1.48 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the University of California, San Francisco Medical Center (the Medical Center) complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2004 Medicare cost report. CMS will use the FY 2004 Medicare cost report to develop the FY 2007 wage index. The Medical Center did not fully comply with Medicare requirements for reporting wage data in its FY 2004 Medicare cost report. Specifically, the Medical Center reported inaccurate data, which affected the wage rate calculation and resulted in overstated wages of $72,311,155 and understated hours totaling 144,796.
We recommended that the Medical Center: (1) submit a revised FY 2004 Medicare cost report to the fiscal intermediary to correct the overstated wages totaling $72,311,155 and the understated hours totaling 144,796 and (2) implement review and reconciliation procedures to ensure that the wage data reported in future Medicare cost reports are accurate, supportable, and in compliance with Medicare requirements. The Medical Center generally disagreed with our findings and recommendations, but agreed with some of our recommended adjustments to the FY 2004 Medicare cost report.